     Department of Homeland Security




           FEMA Should Recover $34,219 From a 

            $3.0 Million Public Assistance Grant 

             Awarded to Bibb County, Georgia 





DA-13-12                                             March 2013

                                   OFFICE or INSP[C rOR GENERAl ,
                                            Ocf'arl mClu of I lomcland Security



                                                        \tAR 1 5 2fl13

MEMORANDUM FOR:                        Maj or P. {Ph lll M ay
                                       Regiona l Administ rator, Region IV
                                       Federa l Emergency Management Agency
                                                          ( )/// ; / /
FROM :                                 D. M icha el   Bear~V' }f!:;tje--
                                       As$lsl ant Inspegor General          V ;
                                       OffICe of Emer~ency M anagement Oversight

SUBJECT:                               FEMAShovld Rec(J'ller $34,119 From a $3.0 Million
                                       Public Assistance Granl Awarded to Bibb Covnty, Georgia
                                       FEMA DlsMter Number 1761-DR-GA
                                       Audit Report Number DA-13 ·12

We audit ed Public A5sistance funds awarded t o Bibb County, Georgi" (County) (FIPS Code 021-
9gQ21·00). Our audit objective was to determin e whether the County ac co unted for and
el(pended Federa l Emergency Man agement Agency (FE MA) fund$ accordin g t o r-ed eral
regu lation s an d FEMA guid elines.

The County received a Public Asslstan ce gran t award tot al ing $3.0 million from the Georgi a
Emer~ncy Management Agency (St ate), a FEM Agrantee, for damages resulting from severe
thunderstorm s and strong tornado win ds, wh ich occurred in May 2008. The awa rd provided
7S percent FEMA f unding for debris removal, emergency protective mNsures, and permanent
repairs to buildings and recreational facilities. Th e award consisted of 6 large projects and 21
sma ll projects.'

We audrled t he six la rge project~ with awards t otalinll $2.11 mi llion (~ee Exhibit , Sched~11:' of
Projects Audited). The audit cover ed t he period May 11, 2008, to September 21, 2012, duri~g
whi ch the Co unty claimed $2.7 milli on und er th e project5 reviewed . At the time of our aud it,
th e Co unty had comp leted work on alililfge projecu and had submitted a flnal claim to t he
State for all proj e<:t expenditure~.

We conducted this performa nce ~udit between June 2012 and Febru~ry 2013 pursuant to the
InspectorGenerol Act of 1978, as amended , and accord ing to generally accepted govern ment
aud iting standar ds. Those standards require t hat we plan .md perform the audit to obt ain
sufficient, appropriate evidence to provide a reasonable basi~ for our findings OInd conclusions
base d upon our audit object ive . We belleye I tla! t he evidence o bt ained provides a rea!.Oflable
b;ni~ fo r our fi ndings and conclusions based upon our audit objective. To conduct t his audit, we


1 federa l reRulalic n, in eft.,.;t.l tko t i m~ 01 the d.saller sel lh! I. rge project th,,,,kotd.t $60.900.

                                                                                                           DA·13· n
                           OFFICE OF INSPECTOR GENERAL 

                                      Department of Homeland Security 



applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed County,
State, and FEMA personnel; reviewed the County’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
County’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the County’s method
of accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                            RESULTS OF AUDIT

FEMA should recover $34,219 of grant funds awarded to the County. Although the County
generally accounted for FEMA funds according to Federal regulations and FEMA guidelines, the
County did not have adequate support for $22,309 of costs claimed for equipment use, and did
not reduce its claim under Project 28 for $11,910 of project income received from the sale of
mulch.

Finding A: Supporting Documentation

The County’s $22,309 claim for use of force account equipment under Project 266 was not
supported by adequate documentation.2 Cost principles at 2 CFR 225, CostfPrinciplesfforfState,f
Local,fandfIndianfTribalfGovernments, Appendix A, Section (C)(1)(j) states that a cost must be
adequately documented to be allowable under Federal awards.

During the disaster, the County used its police vehicles for patrolling streets and as barricades
at intersections where traffic lights that were not operational. According to FEMA’s Schedule of
Equipment Rates published on May 1, 2008, police vehicles used for patrolling are reimbursed
at $0.63 per mile and vehicles used for barricades while stationary with the engine running are
reimbursed at $18.00 per hour.

The County did not have adequate documentation to support its claim. The County used
timesheets of police officers who were assigned to each police vehicle on a daily basis to
calculate its claim. For instance, if an officer with an assigned vehicle worked a 10-hour day,
the County claimed 10 hours of use for that vehicle. However, this methodology assumed that
all vehicles were used as barricades the entire time the officer worked. It did not take into
                                  

2
 Force account refers to the County‘s personnel and equipment. 

www.oig.dhs.gov                                    2                                DA-13-12
                         OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



consideration those vehicles used for patrolling, whose costs are reimbursed at significantly
reduced rates. The County did not maintain any other documentation such as activity logs to
support its claim for police vehicle use. Therefore, we question the $22,309 as unsupported
because we could not validate the accuracy and eligibility of the equipment costs claimed.

County officials agreed with this finding. They said that they normally maintain supporting
documentation for mileage driven by police officers patrolling and for hours that vehicles are
used as barricades. However, they did not keep such documentation because they relied on
guidance from FEMA officials, who said that they should claim vehicle costs using hourly rates
regardless of vehicle use.

Finding B: Project Income

The County did not reduce its claim under Project 28 for $11,910 of project income it received
from the sale of mulch resulting from the reduction of disaster-related vegetative debris.
Federal regulation (44 CFR 13.25 (b) and (g)(1)) states that income received or earned by a
subgrantee during the grant period that is related to the grant-supported activity shall be
deducted from the total allowable costs to determine the net allowable costs. Therefore, we
question the $11,910.

County officials agreed with this finding.


                                      RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $22,309 (Federal share $16,732) of unsupported project costs
(finding A) unless the County can provide additional evidence to support the costs.

Recommendation #2: Disallow $11,910 (Federal share $8,933) of ineligible project income
(finding B).




www.oig.dhs.gov                              3                                   DA-13-12 

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


We discussed the results of our audit with County, State, and FEMA officials during our audit.
We also provided a draft report in advance to these officials and discussed it at the exit
conference held on February 6, 2013. County officials agreed with our findings and
recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, the recommendations are
considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Amos Dienye, Auditor-in-charge.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                             4                                    DA-13-12 

                      OFFICE OF INSPECTOR GENERAL 

                             Department of Homeland Security 



                                                                                        Exhibit

                              Schedule of Projects Audited 

                           May 11, 2008, to September 21, 2012 

                                  Bibb County, Georgia 

                           FEMA Disaster Number 1761–DR–GA 


Project   Category       Description             Amount       Amount       Amount
Number    Of Work         Of Work                Awarded      Claimed     Questioned       Finding
  28         A         Debris Removal           $1,179,313   $1,204,503      $11,910          B
  32         A         Debris Removal              242,415      401,771             -
  95         A         Debris Removal              471,638      171,946             -
  299        B       Emergency Protective          641,774      627,614             -
                          Measures
 266          B      Emergency Protective         123,071      123,071        22, 309        A
                          Measures
 268          B      Emergency Protective         145,823      145,823              -
                          Measures
 Total                                          $2,804,034   $2,674,728      $34,219




 www.oig.dhs.gov                            5                                 DA-13-12 

                       OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



                                                                              Appendix


                                      Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-040)

State
Director, Georgia Emergency Management Agency
State Auditor, Georgia

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Subgrantee
Chief Administrative Officer, Bibb County, Georgia

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            6                            DA-13-12 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
